<html>
<title> - LEGISLATIVE HEARING ON A DISCUSSION DRAFT BILL, S. _, THE ENDANGERED SPECIES ACT AMENDMENTS OF 2018</title>
<body><pre>[Senate Hearing 115-351]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-351
 
 LEGISLATIVE HEARING ON A DISCUSSION DRAFT BILL, S. _, THE ENDANGERED 
                     SPECIES ACT AMENDMENTS OF 2018

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 17, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  


  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
 
                                  
                   U.S. GOVERNMENT PUBLISHING OFFICE
 31-426 PDF                WASHINGTON : 2018      
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 17, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Mead, Hon. Matt, Governor, State of Wyoming......................     5
    Prepared statement...........................................     9
Broscheid, Bob, Director, Colorado Parks and Wildlife............   343
    Prepared statement...........................................   345
    Responses to additional questions from:
        Senator Barrasso.........................................   351
        Senator Carper...........................................   353
Strickler, Matthew J., Secretary of Natural Resources, 
  Commonwealth of Virginia.......................................   355
    Prepared statement...........................................   357
    Responses to additional questions from:
        Senator Barrasso.........................................   361
        Senator Whitehouse.......................................   362

                          ADDITIONAL MATERIAL

Text of The Endangered Species Act Amendments of 2018, Section-
  by-Section Analysis............................................   378
Letter to Senators Barrasso and Carper from David Y. Ige, 
  Governor, State of Hawaii, July 19, 2018.......................   387


 LEGISLATIVE HEARING ON A DISCUSSION DRAFT BILL, S. _, THE ENDANGERED 
                     SPECIES ACT AMENDMENTS OF 2018

                              ----------                              


                         TUESDAY, JULY 17, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:50 a.m. in room 
406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Capito, Wicker, 
Fischer, Rounds, Ernst, Sullivan, Cardin, Merkley, Gillibrand, 
Booker, Markey, Duckworth, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today we will consider the Endangered Species Act 
Amendments of 2018, and I would like this discussion draft to 
serve as the foundation for a bipartisan effort to modernize 
the Endangered Species Act. If we work together--Republican and 
Democrat--we can ensure that this important law fulfills the 
full conservation potential and works better for species, as 
well as for people.
    Congress last reauthorized the Endangered Species Act with 
amendments of substance in 1988, 30 years ago. Even the U.S. 
Constitution has been amended more recently than the Endangered 
Species Act.
    Stakeholders are making it clear that the Endangered 
Species Act can be improved. A major goal of the Endangered 
Species Act is the recovery of species to the point that 
protection under the statute is no longer necessary.
    Since the ESA was signed into law, only 54 out of 2,393 
species listed in the U.S. and foreign countries have been 
delisted because they have recovered. That is less than 3 
percent.
    Now, as a doctor, if I admit 100 patients to the hospital 
and only 3 recover enough under my treatment to be discharged, 
Governor, I would deserve to lose my medical license with 
numbers like that.
    When it comes to the Endangered Species Act, the status quo 
is not good enough. We must do more than just list species and 
leave them on life support. But that is what we are doing now. 
We need to see species recovered.
    In June 2015 as then-chairman of the Western Governors 
Association, Wyoming Governor Matt Mead took on the challenge 
of identifying opportunities to modernize the Endangered 
Species Act. Now the Western Governors Association represents 
Governors of 19 western States and three U.S. territories in 
the Pacific. He launched the GWA's Species Conservation and 
Endangered Species Act Initiative.
    Three years later Governor Mead's groundbreaking initiative 
has facilitated a bipartisan dialogue of stakeholders from 
across the political spectrum. They have resulted in three 
annual reports, the adoption of a bipartisan Western Governors 
Association Policy Resolution, and the adoption of bipartisan 
Western Governors Association policy recommendations.
    This month I released a discussion draft, the Endangered 
Species Act Amendments of 2018, and it is based on the Western 
Governors Association's principles and policies. Earlier this 
year I received a supportive letter from the GWA signed by its 
chair and its vice chair, Republican Governor Daugaard of South 
Dakota and Democratic Governor Ige of Hawaii. It commended our 
efforts to address ``this polarizing topic in an inclusive, 
thoughtful manner.''
    It noted, ``The proposed bill reflects this fact and offers 
meaningful bipartisan solutions to challenging species 
conservation issues.'' It continued, ``The proposed bill is 
generally consistent with the Western Governors Association 
recommendations, and the Western Governors Association offers 
its support for the portions of the bill that are consistent 
with existing Western Governors policy.''
    The discussion draft was also shaped by input from two EPW 
Committee hearings last year. We heard from a diverse 
bipartisan group of witnesses and panelists, including former 
Democrat Wyoming Governor Dave Freudenthal, and Fish and 
Wildlife directors from across the country. Each of these 
witnesses and panelists acknowledged that the Endangered 
Species Act could work better. Many believe the foundation 
established by the Western Governors Association was a good 
starting point for modernizing the Act.
    The discussion draft elevates the role of States in 
partnering with the Federal Government to implement the 
Endangered Species Act. It affords States the opportunity to 
lead wildlife conservation efforts, including through the 
establishment of recovery teams for listed species, and 
developing and implementing recovery plans. It provides for 
increased regulatory certainty so stakeholders are incentivized 
to enter into voluntary conservation and recovery activities. 
It increases transparency. It codifies a system for 
prioritizing species listing petitions so limited resources 
flow to the species most in need.
    Over the 45-year life of the Endangered Species Act, the 
capacity of State wildlife agencies has grown significantly. 
According to the Association of Fish and Wildlife Agencies, 
States now spend over $5.6 billion on conservation and employ 
approximately 240,000 people and volunteers. Of that number, 
50,000 are employees, including over 11,000 degreed wildlife 
biologists, over 10,000 wildlife law enforcement officers, and 
6,000 employees with advanced education degrees.
    Combined, the U.S. Fish and Wildlife Service and the 
National Marine Fisheries Service employ only 11,661 people, so 
the substantial resources of the States are not located in 
Washington, DC. These State agencies are in the field every day 
working to protect wildlife.
    The draft bill has received broad support from conservation 
and stakeholder groups alike. Over 100 organizations have 
already written to the Committee to express their support of 
this effort, so I look forward to working with the members of 
this Committee and the larger stakeholder community to find a 
bipartisan pathway to meaningful modernization of the 
Endangered Species Act based on the Western Governors 
Association's recommendations.
    I now turn to Ranking Member Carper for his statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    To our lead off witness, Governor, great to see you. 
Welcome. Thank you for your leadership in Wyoming and among our 
Nation's Governors.
    As a recovering Governor, I recognize the critical and 
sometimes challenging role that States play in implementing our 
Federal laws. The Endangered Species Act, one of our Nation's 
most popular environmental protection statutes, is one example 
of just such a law.
    I also appreciate the ability of our Governors to come 
together with stakeholders and solve difficult issues on the 
ground.
    Governor Mead, I understand from colleagues that you 
spearheaded--and the Chairman has alluded to this--a bipartisan 
3-year process through the Western Governors Association to 
discuss the improvements to the Endangered Species Act, and I 
commend you for doing so. I think we commend you for doing so.
    I very much look forward to hearing from you and our other 
witnesses today on what we all believe is an important topic. 
But I have to be honest, as well. I am not fully convinced that 
a similar process is possible right now in Washington, DC. Our 
colleagues in this Congress have put forward and advanced a 
myriad of legislative proposals to weaken, and in some cases, 
undermine the Endangered Species Act. The current 
Administration has repealed policies from the previous 
Administration that would have helped endangered species to 
recover, and I am told that the Department of Interior plans to 
release new regulations this week that could harm our Nation's 
most imperiled species.
    Further, the draft legislation we are considering today 
includes provisions that go beyond the legislative 
recommendations proposed by the Western Governors Association 
last year. Even the text that is based on the WGA's 
recommendations contains problematic details. To my knowledge, 
none of the Democratic Governors who supported that resolution 
can endorse this draft, at least not as it is currently 
written.
    I hasten to add that this process seems to be skipping 
another important step, and that is discussing and 
incorporating the views of the other 31 States. For example, my 
home State of Delaware has a compelling story to tell. The 
Endangered Species Act has successfully recovered a number of 
species in our State recently, including the Delmarva fox 
squirrel and the bald eagle.
    Delaware is proud to host and help recover threatened 
species like the red knot, a tiny little bird that flies all 
the way from the North Pole down to Brazil and stops for lunch 
one place along the way, Delaware, and keeps on going. Another 
bird called the piping plover, we have helped that one recover, 
too. People travel from all over the world, far and near, to 
view these special birds from our beaches along the Atlantic 
Ocean and along the Delaware Bay. In fact, I joined some of the 
birders just a couple months ago at our beloved wildlife 
refuges. We are blessed with two of those.
    The First State also enjoys a wonderful working 
relationship with the U.S. Fish and Wildlife Service. Our 
region is working with landowners, industry partners, and 
nonprofit organizations to successfully prevent new listings.
    Now, let me just say, no law is perfect. I know that, and I 
think we all know that. But in Delaware's experience, changes 
to the Endangered Species Act have not been a prerequisite for 
the law to work. I continue to believe that our State, along 
with the Service and all States, could do exponentially more to 
recover species and prevent new listings with additional 
resources.
    The Western Governors Association seems to agree with this 
assessment. I also remember that all of our witnesses at 
previous endangered species hearings agreed that funding is a 
serious challenge. Yet, in recent years, Congress has 
underfunded the Endangered Species Act, and the draft 
legislation that we are holding this hearing on today does not 
provide a meaningful funding solution for species conservation.
    Instead, the legislation proposes several changes to the 
Act that cause--for me--some real concerns. For one, it creates 
a new definition for how the Fish and Wildlife Service should 
consider scientific information. This change could actually 
prevent the best available science from guiding species 
management, especially in an Administration that consistently 
denies and undermines science.
    It also includes a judicial review prohibition that limits 
the public's opportunity to challenge delisting decisions that 
may not be supported by the best available science or are 
otherwise not fully compliant with the law.
    Having said all that, I want to again acknowledge the 
thoughtfulness that went into the Western Governors Endangered 
Species Act Initiative. Having said that, I am having a hard 
time understanding how this legislation, in particular, will 
better recover species or better serve the American people.
    Perhaps this hearing will serve to further my 
understanding, or perhaps it will cause us to go back to the 
drawing board and draw on the expertise and the insight of some 
of those other 31 States whose input apparently has not been 
sought when the legislation before us was being crafted. If we 
do that, it may enable our Committee to come together, as we 
have on several occasions in this Congress, in working to truly 
conserve our Nation's treasured wildlife for future 
generations.
    Thank you, Mr. Chairman.
    Again, Governor, welcome.
    Senator Barrasso. Well, thank you very much, Senator 
Carper.
    Today we are going to hear from two panels. Each member of 
the Committee has an option to either ask one 5-minute round 
from either panel or a 3-minute round from each panel, but we 
are going to follow this procedure to ensure that we complete 
the hearing by noon because we have a couple of roll call votes 
scheduled for later this morning, and we want to be able to 
cast those votes.
    On the first panel we will soon hear from Matt Mead, 
Governor of Wyoming, and on the second panel we will hear from 
Bob Broscheid, the Director of the Colorado Parks and Wildlife, 
and Matt Strickler, who is the Secretary of Natural Resources, 
the Commonwealth of Virginia.
    I want to remind the witnesses your full testimony will be 
made part of the official hearing record.
    I would like to take a moment now to introduce Wyoming 
Governor Matt Mead, who has been serving as Governor since 
January 2011.
    Born and raised in Jackson, Wyoming, he graduated law 
school from the University of Wyoming. Since then, he has 
engaged in the private practice of law, as well as worked as a 
prosecutor and as a United States Attorney.
    Governor Mead has served in the past as Chair and also Vice 
Chair of the National Governors Association's Natural Resources 
Committee. He also worked as the Co-Chair of the State and 
Federal Sage-Grouse Task Force. From 2015 to 2016 he served as 
Chairman of the Western Governors Association, where, as I 
mentioned before, he led the Species Conservation and 
Endangered Species Act Initiative. That initiative serves as 
the inspiration of the discussion draft that we are examining 
today.
    Governor Mead also has a farm and ranch operation in 
southeast Wyoming, and I hope that Governor Mead will tell us 
about his experience in Wyoming and within the Western 
Governors Association, balancing the interests of citizens 
while efficiently conserving and effectively conserving 
wildlife.
    Governor Mead, it is an honor to welcome you as a witness 
before the Environment and Public Works Committee. Thank you 
for traveling to Washington to be with us today. I know 
Frontier Days is coming to Cheyenne, and I know you are going 
to be very busy over the next week and a half at home, but I am 
so grateful you take time to be with us today.
    Governor, please proceed.

                 STATEMENT OF HON. MATT MEAD, 
                   GOVERNOR, STATE OF WYOMING

    Mr. Mead. Chairman Barrasso, Ranking Member Carper, and 
Ranking Member Carper, I hope you give me your notes on how to 
recover from the Governor's [unclear], but it is an honor for 
me to be Governor of Wyoming.
    Senator Carper. I am still working on those notes.
    Mr. Mead. Thank you, sir.
    Senator Carper. One of my favorite things as Governor--this 
should not take away your time--was coming and testifying 
before Congress when I was chairman of the NGI. I just loved 
it, and I hope you enjoy it as well. Thank you.
    Mr. Mead. I do.
    And to all the members of the Committee, thank you for the 
privilege and the opportunity to be with you this morning and 
the opportunity to speak about the Endangered Species Act 
amendments and the discussion draft.
    To start out, I want to share with you, I have witnessed 
some of the greatest successes of the Endangered Species Act in 
1987 on a ranch near Meeteetse, Wyoming. Biologists removed 
from the wild the last 18 black-footed ferrets in the world. 
Before that, they were believed to have been extinct. Today, 
due to collaborative efforts among multiple partners, ferrets 
have been reintroduced to eight States, as well as Canada and 
Mexico.
    Another example, when listed as threatened in 1975, 
biologists estimated as few as 136 grizzly bears remained in a 
few isolated areas of Yellowstone National Park within the 
Greater Yellowstone Ecosystem. Upon delisting in 2017, 
conservative estimates show that more than 700 bears inhabit an 
area the size of New Jersey, Delaware, and Connecticut 
combined, and continue moving into areas where people have not 
seen them in generations. These success stories are a testament 
to the ESA's ability to prevent extinction.
    The ESA provided part of the incentive for folks to work 
together to keep the greater sage-grouse from being listed. 
Wyoming brought together diverse interested groups to develop a 
scientifically based and common sense strategy for preserving 
the bird. Wyoming's plan served as a model for other western 
States and Federal agencies. Preventing the need to list sage-
grouse is a success story.
    I have also witnessed some of the ESA's greatest failings. 
It took five lawsuits and 15 years to delist a recovered gray 
wolf population in Wyoming. Grizzly bears are embroiled in 
litigation for the second time. Canadian lynx were listed more 
than 18 years ago and still have no discernible path to 
recovery. In fact, nearly 30 percent of all listed species have 
no recovery plan, and litigation often dictates U.S. Fish and 
Wildlife Service priorities and workload.
    The ESA hasn't been substantially amended since 1988, so 
now it is time, in my view, to have this discussion, and again, 
I so appreciate the opportunity. As evidence that this is the 
time to have this discussion, there are currently bills before 
Congress to prevent listing greater sage-grouse and lesser 
prairie-chickens for 10 years. Before this, there were bills 
proposing to delist gray wolves in part of the country and to 
prevent judicial review of already delisted species.
    I supported legislation to delist gray wolves in Wyoming 
because it appeared at the time the only viable option, and I 
will continue to support efforts to protect gray wolf delisting 
until we can address the root of the problems.
    But I have to frankly say that that process of Congress, by 
popular vote, making the decisions on individual species is not 
the best way to go. Addressing root problems would obviate the 
need for Congress to intervene with respect to individual 
species. That would be better legislation, better policy, and 
better for wildlife.
    The Chairman's discussion draft offers a real bipartisan--
which is so critical--way to correct deficiencies in the ESA 
implementation, while maintaining science based decisionmaking. 
As was said, this was my initiative at Western Governors, and I 
just want to give a little more context on that.
    That was open to everybody. We extended an open invitation 
to anyone interested in species conservation and endangered 
species issues to engage in meaningful dialogue. For 3 years 
the initiative included 11 work sessions, 8 Webinars, several 
surveys, questionnaires, two reports outlining opportunities 
for ESA improvement. To ensure transparency, work sessions and 
Webinars were recorded and posted on YouTube. This process 
helped inform the Western Governors, and in 2016 and again in 
2017, Western Governors adopted bipartisan policy resolutions 
that included specific recommendations for improving the ESA 
and species conservation.
    A number of WGA recommendations are reflected in this 
discussion draft bill. A couple of them--when Congress adopted 
the ESA in 1973, it did not require the Fish and Wildlife 
Service to act on petitions by a date certain. In 1978 Congress 
amended the ESA, giving the Fish and Wildlife Service 2 years 
to make a final determination on a proposed rulemaking. If the 
Fish and Wildlife Service failed to act within those 2 years, 
it had to withdraw.
    In 1982, after complaints that listing decisions were being 
delayed, Congress acted, adding the current requirement that 
the Fish and Wildlife Service act on a substantial 90-day 
finding within 12 months of the date received. Congress did not 
choose the 12-month deadline for any specific scientific 
reason; it was simply an arbitrary timeline meant to spur 
action on potential species listings.
    The Fish and Wildlife Service receives hundreds of 
petitions to list species at a time, but it does not have the 
resources to meet the deadlines. The resulting litigation 
allows courts, not scientists, to prioritize agency workloads 
and frequently impedes local species conservation efforts that 
can take years to develop and implement.
    After 36 years of the status quo, this discussion draft 
addresses this source of conflict in a scientifically based, 
practical way by codifying the framework of the Fish and 
Wildlife Service's National Listing Work Plan. This Work Plan 
has been praised by environmental groups and conservation 
groups, but despite its broad support, the National Listing 
Work Plan extends the current statutory deadline, and if a 
court took issue with this, we would fully expect deadline 
driven litigation to rise again.
    This discussion draft also--we believe in Western 
Governors--enhances the roles of States in several ways. It 
contemplates States' leading recovery teams, developing and 
implementing recovery plans, consulting with Federal agencies 
in a meaningful way on all aspects of ESA implementation.
    Of course, this is a start, and we believe it is a very 
important start. We understand people will have concerns. One 
of the concerns that I have heard is critics of enhancing the 
role of States and ESA generally distrust the States' ability 
to manage wildlife. However, Congress did not adopt the ESA 
because it distrusted the States' ability to manage wildlife. 
To the contrary, Congress and other supporters of the ESA 
recognized the important role States play in wildlife 
management. For example, during its adoption, New York 
Representative James Grover, speaking in favor of the ESA, 
argued, ``The greater bulk of the enforcement capability 
concerning endangered species lies in the hands of the State 
fish and game agencies, not the Federal Government.''
    The House Committee on Merchant Marine and Fisheries Report 
on the ESA also explained the important role States would play, 
stating, ``The States are far better equipped to handle the 
problems of day to day management and enforcement of laws and 
regulations for the protection of endangered species than is 
the Federal Government.''
    There are numerous examples about the importance Congress 
recognized States would play. Unfortunately, much of Congress's 
vision never materialized due to inadequate Fish and Wildlife 
Service funding for State recovery efforts.
    Through amendment, the ESA can give back State incentives 
that Congress originally envisioned. The provisions of this 
discussion draft take a needed step in returning the ESA to its 
original vision that garnered near unanimous support from 
Congress when passed.
    In conclusion, first, I would note this discussion draft 
does not erode authority of the Secretary of Interior or 
Secretary of Commerce. Every time the discussion draft offers a 
greater role to States, the Secretary retains final 
decisionmaking authority.
    Second, the draft does not remove science from 
decisionmaking. On the contrary, decisions that list, up-list, 
down-list, delist, or decline to list must be based on the best 
scientific or commercial data.
    This discussion draft stems from a State led, bipartisan 
effort conducted over several years. Environmental, sportsmen, 
ag, and energy interests all have commended the WGA process. I 
would also note that after we got the process through the 
Western Governors, I took it to the National Governors 
Association, and the National Governors Association--and I 
don't want to overstate this--broadly adopted many of the 
policies of the WGA. It is not as extensive, and I want to be 
careful there, but the NGA has also taken a look at this.
    So, this draft represents a reasonable way to elevate the 
WGA process into a national dialogue. As said by Mr. Chairman, 
the WGA submitted a letter of support for the provisions of 
this bill that are consistent with WGA policy.
    So now we have an opportunity to improve the Endangered 
Species Act for wildlife and for people. We can encourage 
innovative conservation practices that obviate the need to list 
species. We can facilitate faster and more cost effective 
species recovery. We can improve transparency, reduce 
litigation, and ensure that science dictates species management 
decisions, not Congress or the courts. Perhaps most 
importantly, we can see the ESA reauthorized for the first time 
in a generation.
    Thank you again very much for the opportunity, and I 
appreciate the warm welcome this morning.
    Thank you.
    [The prepared statement of Mr. Mead follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Senator Barrasso. Well, thank you very much, Governor. I 
will tell you there are a number of interns from my office who 
are here from Wyoming, a number from Casper, and they were 
delighted to hear your testimony, so people are listening in 
the room, and people from Wyoming are going to be calling their 
parents very shortly to say what a great job you did. Thank you 
very much. I appreciate it, Governor.
    Mr. Mead. Thank you, Mr. Chairman.
    Senator Barrasso. A couple of questions, then we will go 
back and forth around the panel.
    Over the last several decades there have been a series of 
efforts to amend the Endangered Species Act. They weren't 
successful for a variety of reasons, so can you kind of 
distinguish for this Committee the difference between past 
efforts to amend the Endangered Species Act and what the 
Western Governors Association is doing? Do you think the 
discussion draft reflects the policy, principles, and 
recommendations kind of in a bipartisan way?
    Mr. Mead. Thank you, Mr. Chairman. I think it is different 
than past efforts. There is no question, when I announced this 
was going to be my initiative, I immediately got pushback, 
saying this is too tough an issue. To Senator Carper's 
comments, it is a tough time to get this through Congress. I 
get that. But this is an important enough issue, and it is an 
exciting enough issue. The opportunity in Wyoming and across 
the Nation to address wildlife issues, I think we have an 
enthusiastic group of Governors and citizens that are ready to 
move forward.
    In 1998 Senator Kempthorne got moving on this as an 
individual Senator. His efforts were killed by Senator Lott. In 
2005 California Representative Pombo got some improvements 
through the House, and it died in the Senate.
    But this effort began at the State level. It involved local 
input; it has been transparent. We have included ranchers; we 
have included wonderful groups that have helped us out, like 
The Nature Conservancy and Audubon. We have had, as I said, not 
only WGA involvement, but NGA involvement. And we have learned 
a lot. We have over 40 years of knowledge.
    So, this is the time, and I think it is different because 
it has been bipartisan; it has been an effort by Republican and 
Democratic Governors, and Independent, as well.
    As we see now Congress taking up individual species to 
decide whether they remain listed or delisted, it also shows 
that it is the time. And there is good news out there, Mr. 
Chairman. What we have done in Wyoming and in the West with 
regard to sage-grouse shows that voluntary efforts can go a 
long way to preventing a species from being delisted.
    I acknowledge it is difficult, but I also acknowledge that 
we have gotten it through Western Governors; we have addressed 
it with National Governors. This can be and should be a 
bipartisan effort.
    Senator Barrasso. Can you explain a little bit more about 
why States should be a more equal partner with the Federal 
Government in implementing the Endangered Species Act? We 
showed the chart about just how involved States are in terms of 
the number of personnel and the commitment of resources, 
because things really have changed.
    Mr. Mead. Mr. Chairman, I had not seen that chart until it 
was held up this morning. I think that is very telling in terms 
of the amount of expertise and the money. Just on grizzly 
bears, for example, the State of Wyoming spent approximately 
$50 million in the recovery of grizzly bears. That is one State 
on one species. There is no question, looking at your chart and 
otherwise, from my knowledge working in Wyoming as Governor, 
States have not only put in resources, but they have a great 
amount of expertise.
    Also, I would think it is really important to point out 
States care about endangered species. It is not only a quality 
of life issue. Why do we live in our States? This species, that 
species. But it also is an economic driver particularly, I 
know, in the State of Wyoming for tourism. It is very 
important. We have a trust responsibility with regard to 
wildlife. We care about our habitat.
    I would also point out that to the extent there is a 
concern that States are not the one to lead this, I just think 
the expertise and the money, and over the 40 years, I think 
that States have become much more engaged. In fact, in my view, 
States are the leaders in terms of species conservation.
    Senator Barrasso. It does seem that too frequently, in 
terms of trying to promulgate a rule for delisting a species 
under the Endangered Species Act, that it gets derailed by 
litigation, and we have seen that happen in Wyoming. Under this 
discussion draft, a decision by the Secretary of Interior to 
delist a species is not then subject to judicial review until 
the expiration of a 5-year monitoring period.
    Could you talk a little bit about this cooling off period, 
why it is important and how we respond to those who claim that 
delaying judicial review could have an impact on the delisted 
species?
    Mr. Mead. I think that is really an important point, Mr. 
Chairman, because I think, on the one hand, if you don't have 
that opportunity, as you said, a cooling off period, I think 
you are going to lose local support, and I think you are going 
to lose voluntary efforts. People want to engage in this. On 
the sage-grouse, oil and gas companies and the ranchers, they 
were very excited about having a plan to go forward. But they 
also needed to know that there was going to be fruit at the 
end; that if they do their work, there was going to be a 
reward. And with the amount of lawsuits that are out there, it 
hurts the opportunity to have a decent management plan.
    I would also point out, as you know, in the working draft, 
that in that cooling off period, if something, you know, 
whether it is a weather condition or something else, there is 
still an opportunity for the Secretary to have an emergency 
listing. So, you won't fall off a cliff, in other words, if 
something unanticipated happens.
    But I think if you want to build that local support, if you 
want to have voluntary efforts, if you want to get away from 
this notion, that is unfortunate but is out there, that finding 
endangered species in your State or on your land is bad news 
story, and you want to turn it into good news story, you have 
to show the voluntary efforts, and the cooperative effort at 
the local and State effort are going to work and that it is 
just not a race to the courthouse on everything you try to do.
    Senator Barrasso. Thank you very much, Governor.
    Senator Carper.
    Senator Carper. Thank you.
    Governor, thanks again for your efforts to spur meaningful 
conversation about improving the Endangered Species Act. 
Several times in your testimony today you mentioned the word 
funding, and I think it is appropriate that you do because I 
believe--and I know that my colleagues believe--that funding 
has got to be part of the conversation.
    The Western Governors Association's Endangered Species Act 
recommendations from last year stated, among other things--this 
is a quote right from the recommendations, ``Congress should 
allocate additional funding to the services to implement the 
Endangered Species Act.'' It went on to say, ``Governors will 
work with Congress to identify priorities for fundings that 
will facilitate voluntary species conservation efforts and 
improve the efficacy of the Endangered Species Act.'' That is 
part of one of the recommendations, and I very much appreciate, 
and I agree with this recommendation.
    Yet the draft legislation that we are considering today, as 
far as I know, does not tackle funding challenges at the State 
or the Federal level. So, let me just ask you. This is not a 
trick question, but do you believe that the Congress should 
address these issues? You have spoken to it already in your 
recommendations, but do you think that Congress ought to 
address these issues, and if so, how?
    Mr. Mead. Senator, it is a good question. You are exactly 
right. Funding was part of our discussion. We were not equipped 
to say what that funding level, what full funding looks like, 
but I would also add to that that I don't know these numbers, 
but what funding is going to recovering a species, what funding 
is going to partner with the States, versus funding that is 
used for litigation. Just in the work that I have had in the 7, 
almost 8, years, you sometimes get in these discussions with 
Federal folks and State folks and local folks; let's do this so 
we can avoid litigation. It shouldn't be litigation driven; it 
should be how to improve the opportunity for a species, in my 
mind.
    So, absolutely, funding has to be part of it, and as I 
said, reauthorization, this would be the first time in a 
generation. But in my view, we need to make sure we are 
spending money in the right areas and actually recovering and 
helping species, versus just gearing up to avoid, it is money 
for litigation strategy versus for species strategy.
    Senator Carper. All right. I have one more question, if I 
could.
    Governor, your testimony mentions legislative proposals to 
prevent Endangered Species Act listings for the greater sage-
grouse and lesser prairie-chicken for 10 years. Your testimony 
also acknowledges that the Endangered Species Act, and 
presumably the threat of a listing, provided part of the 
incentives for States, for stakeholders, and for the Federal 
Government to work together to successfully conserve those 
species.
    Chairman Barrasso's legislative proposal, as far as I know, 
does not include the 10-year listing prohibition, for which I 
commend him, but the listing prohibition language seems to 
arise at every turn, whether it be in the annual appropriations 
process or during our consideration of the NGAA.
    What negative impacts do you think a 10-year sage-grouse 
listing prohibition could have on collaborative conservation 
efforts in Wyoming or even more broadly?
    Mr. Mead. Thank you, Senator. It is a tough issue, but as I 
tried to articulate in my testimony, Congress addressing 
individual species I do not think is the way to go. I think you 
have other things to do. And to think that a species rides on a 
popular vote, when science may direct otherwise, I don't think 
is the best way to go.
    Having said that, because I think it is important to 
acknowledge this, I did support that with regard to the gray 
wolves. I think for those who are reluctant to take on this 
heavy lift, who say, geez, can Congress get it done, and I mean 
that respectfully, it should be a red flag. When Congress is 
having to take that up, and it was with gray wolves over 
multiple, multiple years, 20 years, and multiple, multiple 
lawsuits, and people doing the right thing, and the numbers 
have reached their goals, and you still can't get the species 
delisted. That is why those things happen.
    Is it the best way to do it? No, but I think it is a red 
flag that is borne out of frustration for where is the end 
game. We have done everything you have asked. We have reached 
the goal line in terms of habitat and species, and we still 
can't get it delisted. That is the frustration that causes 
that, I think, and that is why, in my view, this is the time 
for us to engage and make improvements, so that we are not 
leaving it, again, respectfully, to Congress to make a popular 
vote on a species.
    Senator Carper. All right. Thank you again for your 
testimony and your thoughtful responses.
    Mr. Mead. Thank you, Ranking Member.
    Senator Barrasso. Thanks, Senator Carper.
    Senator Ernst.
    Senator Ernst. Thank you very much, Mr. Chair.
    Thank you, Governor, for being here, and thanks for being a 
leader in this area. We really do need folks stepping up and 
discussing this, so thank you very much.
    We do talk about, of course, delegating more authority to 
the States, and a lot of times people just have this knee-jerk 
reaction that because you are delegating more authority to the 
States, you are somehow weakening the law. I don't necessarily 
believe that is true. I think in this case it is a good idea.
    Now, the draft legislation before us does elevate the role 
of the States. I think that is important. But it also allows 
the Secretaries of Interior or Commerce to overrule the States' 
recommendations. So, do you believe--and I think I have heard 
this--but do you believe that simply allowing States to make 
recommendations that can ultimately be overruled by the Federal 
Government amounts to a weaker Endangered Species Act?
    Mr. Mead. Thank you, Senator. I think it makes it stronger, 
and the reason I think it makes it stronger, the States aren't 
asking for veto power; the Secretary still has that power. If 
the States, in the estimation of the Secretary, are going the 
wrong direction, he or she, the Secretary, can say that is not 
the way we are going to go.
    But Senator, if I am taking your question right, the role 
of the States, and I mean this respectfully to our good 
partners in Fish and Wildlife Services, shown by the chart 
there, they don't have as many people, and frankly, the 
expertise lies in the States. It really does.
    The sage-grouse effort, and I have heard people at the 
Interior say this, is one of the greatest conservation efforts 
ever, and with respect, it was led at the local level and the 
State level, started by my predecessor, Governor Freudenthal. 
If the State hadn't done that, we would not be where we are. 
Without the State and the States'--collectively--initiative on 
that, the Federal Government, Fish and Wildlife Service would 
not have been able to do that.
    So, this increased role shouldn't be viewed as usurping any 
authority; it should be building a collaborative partnership 
that is going to be much more effective, and still the 
Secretary will retain that opportunity, as you said, Senator, 
to say, no, I don't think this is the right way to go. And the 
working draft has that mentioned many times; we want greater 
State participation, but if it is not working, in the 
Secretary's view, it is not going to happen.
    Senator Ernst. Very good. Well, I do appreciate that.
    I am going to point out a couple examples that I am 
familiar with. Our Ranking Member mentioned the piping plover. 
We actually have the piping plover in Iowa as well; it is part 
of its breeding territory up and down the Missouri River. I 
learned so much about the piping plover----
    Senator Carper. Could I just ask?
    Senator Ernst. Yes, go ahead.
    Senator Carper. Do you mean the piping plover is two-timing 
Delaware?
    Senator Ernst. It is. Actually, we have a much greater 
territory than Delaware, so it is.
    But I learned so much about the piping plover and the 
pallid sturgeon in the Missouri River from the Missouri River 
floods of 2011. Just an example of where big Federal Government 
doesn't necessarily work very well with the actual landowners 
or people on the ground, during that flood event, we saw a lot 
of boats moving and down the Missouri River as it flooded.
    The perception, whether it was correct or not, was that the 
Federal Government was more concerned about the pallid sturgeon 
and the piping plover than they were about the landowners and 
the homeowners whose homes were under water for 4 months during 
that flood event. So, the perception, whether it was correct or 
not, was that Federal Government was not communicating with 
local landowners.
    Now, as we move forward, we have other examples. Now the 
water has receded, people are trying to get their lives back to 
normal, but now we see those fish habitats, the breeding areas 
for the piping plovers being put into place along the Missouri 
River without input from those local stakeholders. Again, the 
perception is that the Federal Government cares more about the 
endangered species than they actually about those that reside 
in the areas.
    Some of the water has been redirected away from those 
breeding grounds and so forth, and it has caused erosion from 
some of the land where people live; they have homes along the 
river. So, there is a mistrust between the Federal Government 
and the folks along the Missouri River.
    Do you believe that if there was collaboration with folks 
in the middle, from the State and local government, that that 
would help get rid of that misperception?
    Mr. Mead. In a word, absolutely. Even beyond that, if you 
want to have voluntary efforts for your private landowner, your 
farmer, your rancher, you have to have that trust involved in 
that. And I do mean this respectfully, if they hear the Federal 
Government is going to come in and have this plan, it is just 
not going to be as effective if it is more organically grown at 
the State level and the local level, and that is why that 
partnership I think is a real opportunity for species.
    You mentioned sturgeon. One thing I have learned in this, 
we all become very centered on our own world. I have heard of 
sturgeon, but the piper plover, it is an education. There are a 
lot of species I have learned about.
    But I think you are exactly right, Senator, to have that 
trust and to have that local involvement absolutely is 
critical. You brought up Mother Nature. For example, one of the 
things, people say States can't be trusted. Let's look at the 
polar bear, for example. That is listed because of climate 
change. The State isn't going to be able to do that. The long-
eared bat, which I don't know if you have long-eared bats, but 
it is listed----
    Senator Ernst. Small brown bat.
    Mr. Mead [continuing]. Because of a fungus. So, you know, 
those who say States can't be trusted because look at the polar 
bear, the long-eared bat, that is outside of the States' 
control and maybe the Federal control as well. But that State 
participation, the local participation is absolutely, I think, 
critical for better success in the Endangered Species Act.
    Thank you, Senator.
    Senator Ernst. I agree wholeheartedly. Thank you, Governor.
    Senator Barrasso. Thank you, Senator.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Governor, thank you for your testimony, and I commend the 
bipartisan process you used with respect to the Western 
Governors Association on your recommendations. Do you know 
whether the Western Governors Association Democratic Governors 
that supported your process, whether they have supported this 
draft bill?
    Mr. Mead. Senator, I don't know the answer to that. I am 
not disclosing private conversations, but some of the 
Democratic Governors I have talked to, they believe in the 
work; they believe in the draft; their fear, frankly, Senator, 
is that, in this process, that it will not go forward as we, 
the Western Governors or National Governors, envisioned. That 
is why, as a condition of some of the letters you have said and 
even the Western Governors' work, they have made clear we 
reserve the right to withdraw our help on this if it goes awry.
    Senator Van Hollen. No, I appreciate that. I haven't heard 
from any Democratic Governors who were part of the Western 
Governors Association about supporting this draft, not a one. I 
haven't seen a piece of paper. So, until I do, while I 
recognize they supported your process, I am going to assume, I 
have an open invitation to them, that they do not support the 
current draft.
    Look, we all recognize there are things we can do in a 
bipartisan way to improve laws that are on the books. But in my 
view, you took the right approach getting everybody around the 
table. To my knowledge, we have not followed that approach in 
drafting this piece of legislation here.
    And let me just give you one example. There are lots of 
provisions in this bill. There is a provision in this bill 
related to Federal employees. It requires that Governors and 
States give feedback on the performance of individual employees 
of the Fish and Wildlife Service.
    Now, I recognize there are constant communications between 
the States and the Federal Government, but do you think it 
would be appropriate for you, for example, to be told that the 
Federal Government is going to weigh in on the performance of 
your State employees?
    Mr. Mead. No, I don't agree with that. But I do want to say 
this. I think that this process, and why I do support the 
working draft as it is consistent with Western Governors, is 
that it is a good start to a process.
    And Senator, I would not make the assumption that 
Democratic Governors don't support the working draft. I would 
say that they would support provisions in the draft, but maybe 
not everything in there. So, to get started, what I am doing, 
what I think is best is getting Western Governors involved and 
National Governors involved.
    Senator Van Hollen. I appreciate that, but Governor, you 
just pointed out that you disagree with a particular provision 
in this draft, and I share your disagreement with that. There 
are obviously going to be honest disagreements sometimes 
between Fish and Wildlife employees and State employees, and I 
am not sure why would we want to give people that cudgel over 
certain Federal employees who are doing their job, some of 
whom, as you know, have gotten death threats for their work on 
endangered species.
    My time, apparently, has run out. Thank you, Mr. Chairman.
    Mr. Mead. Thank you, Senator.
    Senator Barrasso. Thank you, Senator Van Hollen.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Governor, thank you. I appreciate the hard work you are 
doing, and I know it is an effort that, in my experience, has a 
lot of bipartisan support. When I was attorney general of 
Alaska, where this issue is a huge issue, I co-chaired the 
Endangered Species Act Working Group with my Democratic co-
chair, Gary King, who was the former attorney general of New 
Mexico.
    And particularly the Western AGs, we saw a lot of common 
ground where we didn't think this should be a partisan issue at 
all, but how to best work on the recovery of listed species and 
employing the best science and giving the States a more 
prominent role. So, let me talk to that issue.
    I know Senator Ernst talked about it, I know you believe 
it, but I would disagree a little bit. I think in terms of 
expertise, particularly the State of Alaska, we have thousands 
of State employees who are the top experts in the field 
probably in the world with regard to science and expertise on 
endangered species, including the polar bear, I might add.
    So, the role of the States, from your perspective, should 
be heightened. Why shouldn't it include a veto on decisions? 
And let me give you an example. I know there are issues of 
cross-boundaries, where the species are moving across 
boundaries. What if you happen to be in a State the size of a 
continent in some ways and there is no cross-boundary issue, 
like my State?
    Mr. Mead. Well, Senator, of course--I am sure you know 
this--you have never met a Governor who wouldn't like greater 
authority in all things, but I think that, as the working 
draft, you need to make sure the Secretary has that authority. 
And I appreciate the magnitude of Alaska and the challenges you 
have there, but oftentimes these are cross-State.
    Senator Sullivan. Correct. And where I see that as an issue 
cross-State, I get it; one State shouldn't have a veto. I am 
asking, and maybe it is unique to my State, which, again, is so 
big, has so many species. We care about them way more than the 
Feds do, and keeping them healthy and sustainable.
    But can you see an example where, if there isn't a cross-
boundary challenge, like there are in lower 48 States, that the 
State could even have more authority, particularly when the 
State has as much knowledge, if not more knowledge, than the 
Feds?
    Mr. Mead. Senator, I appreciate what you are saying. I 
guess what I would tell you, perhaps, in the way of context is 
this came out of Western Governors. There were certainly some 
things that I wanted more.
    Senator Sullivan. Sure.
    Mr. Mead. Others wanted less. I think if you start carving 
off a State, the State of Alaska, the State of Hawaii, the 
territories, that my goal is to get this moving forward, and I 
just worry about that hurting the process. But I do appreciate 
what you are saying, sir.
    Senator Sullivan. Well, look, I appreciate the hard work, 
and again, bipartisan work.
    Let me ask another issue that relates to expertise beyond 
the Federal Government. One that is particularly important, 
again, in Alaska, but it is in the draft bill, so I think it 
should have bipartisan support, the whole issue of traditional 
knowledge.
    In my State, that typically means Alaska native communities 
that have been harvesting and watching the species for 
literally thousands and thousands of years. You might know the 
example of the bowhead whale, where western scientists had a 
number that was very, very different from the whaling captains 
of the Inupiat communities on the North Slope, and it ended up 
that the whaling captains and the traditional knowledge ended 
up being right on the numbers, way more than the western 
scientists.
    So, I am glad to see the issue of traditional knowledge 
being highlighted in this. Do you care to speak on that topic? 
I think it is an important one that doesn't get a lot of 
recognition. There are a lot of people who know a lot about 
species who don't necessarily have a Ph.D. in biology from 
American University.
    Mr. Mead. I think it is an important component. The draft 
bill, of course, says there is going to be scientific or 
commercially best data available. And I am not familiar with 
the example you gave, but it rings true to me in that, as we 
were working on, for example, the gray wolf, I would have local 
ranchers say I have three of them in my back pasture, and your 
experts show that there are none in this part of the State.
    Senator Sullivan. Right.
    Mr. Mead. So, I think more information and the more 
credible information you can have is certainly helpful.
    Senator Sullivan. I know my time is expiring here, but if I 
can ask one final question, Mr. Chairman.
    There has been an issue where Federal agencies, in my view, 
have abused their statutory authority by having examples of 
listings that stretch the definition of the foreseeable future 
in making listing decisions. Let me give you an example.
    The bearded seal was listed as threatened based on 
projections of what was going to happen 100 years in the 
future. Nobody knows what is going to happen 100 years in the 
future. Yet, we have more and more Federal agencies that are 
making claims that we are going to list this species because, 
100 years from now, we believe it is going to be threatened.
    Now, mostly that relates to climate change, and certainly 
climate change is happening in Alaska, there is no doubt about 
that, but to be able to say, for a Federal agency, therefore, 
we are going to list a species that is healthy now, but we 
think it is going to be unhealthy 100 years from now, I just 
think that is an abuse of authority, and I am certainly hopeful 
that this legislation can rein in that kind of decisionmaking 
that doesn't have any statutory basis. It happens in my State 
all the time.
    Do you care to comment on that, or is that an issue that 
you guys are trying to take----
    Mr. Mead. Thank you, Senator. We struggled with that at 
Western Governors for the very reason that you said, and not 
only because you add foreseeable future to the issue of climate 
change, and you see climate change in Alaska, you add 
foreseeable future and climate change, and then you are going 
to list a species.
    What do you do about it? What local work can be done? What 
State work can be done? What Federal work can be done? You have 
to have an opportunity to say we are concerned about this, so 
here are the steps you can take. And whether it is climate 
change or whether it is fungus in long-eared bat, if you just 
say it is listed based upon our view of 100-year foreseeable 
future, how do you motivate the local rancher or the fisherman 
or the concerned environmentalist to have a voluntary effort to 
do something about it? So, I do think we have to be careful on 
that, and that is something that certainly the Western 
Governors and the staffs are saying we have to be careful with 
that term, foreseeable future.
    Senator Sullivan. So, there is bipartisan concern on that 
issue?
    Mr. Mead. Lots of bipartisan discussion on that. I don't 
know that we came with a resolution that is helpful, but I 
think that certainly is part of the concern that was discussed.
    Senator Sullivan. All right, thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Sullivan.
    Before heading to Senator Cardin, I want to enter into the 
record a letter from the Western Governors Association of 
support and going title by title of the bill. And this letter 
of support is signed by Governor of Hawaii, a Democrat, Vice 
Chair of the Western Governors Association, Governor Ige. So, 
there has been a submission by a Democrat Senator. There was a 
question earlier asked.
    Additionally, I have a number of letters that over 100 
stakeholders have written in support of the draft Endangered 
Species Act Amendments of 2018 and a bipartisan process to 
improve the ESA. They represent interests in every State, 
including State wildlife agencies, local governments, sportsmen 
and conservation groups, energy, forestry, agriculture, 
livestock, and water groups.
    I ask unanimous consent to submit these supportive letters 
to the record as well.
    Without objection, they are submitted.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Senator Barrasso. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. Thank you for 
convening this hearing.
    Governor, thank you very much for your efforts. We do 
appreciate the fact that we are having this discussion and you 
are bringing Democrats and Republicans together in a bipartisan 
manner.
    The Endangered Species Act has been an extremely important 
policy of this country and has achieved a great deal in 
restoring species in delisting. Every time we get a delist, it 
is a major accomplishment.
    In our area--Senator Carper and my area--we have the 
Delmarva fox squirrel that was delisted. That is an incredible 
accomplishment in our community and is a success of the 
Endangered Species Act.
    I point that out because one of our objectives is to have 
action plans that can preserve species and make them healthier 
so that they can be delisted, and in many cases the challenges 
there are financial. So, one of the issues that I think we all 
could agree on, let's make sure that we have adequate funding 
so that the Endangered Species Act can in fact work.
    I want to also just thank you for your attention to the 
realities of climate change as it relates to endangered 
species. Sometimes it is controversial for us to mention those 
words, so I appreciate you saying that directly. It is 
important on adaptation as it relates to endangered species. 
There are things that you can't do as a result of management of 
the species because of the exterior factors that are changing. 
We want to change the exterior factors, but you don't have that 
ability to make that immediate impact, so you have to adapt to 
the current status, and I appreciate the manner in which you 
dealt with that.
    I want to deal with one area that has brought us some 
concern, and that is the modifications you make in judicial 
review, and the process and your recommendations. You mentioned 
that Governors like to have a lot of power. That is very true. 
I was a speaker of my State assembly, and I remember standing 
up to our Governor. Legislatures like a lot of power.
    But judicial review is checks and balances in our system, 
and because we have strong checks and balances, it makes for a 
much more open process where people have an opportunity for 
input because they know that there is always the possibility of 
the judicial branch getting involved in the process.
    So, I just really want to wave a concern. A lot of people 
who are very much committed to the working of the Endangered 
Species Act have brought at least to my attention their concern 
on the modifications you make in your proposal on judicial 
review, and I would just urge us to step back a moment and 
recognize that it is in all of our interests to make sure that 
we do have checks and balances in our system. It is very 
possible that State officials in your State will act 
responsibly and will have a very open process, but in other 
States they may not, and the judicial review gives us that 
opportunity for balance in our system; and I think, when you 
look at policies today in Washington, it has never been more 
important.
    So, I just point that out. I welcome your thoughts on it, 
but I would just ask you to be open minded as we look at ways 
that we may make this more effective.
    Mr. Mead. Senator, if working on this doesn't do anything 
else, it keeps you open minded, so I will do that. I would say 
this with regard to judicial review. Absolutely important to 
have checks and balances. We know that, and it is important.
    But in this context, I mentioned in my opening comment 
about the years and the multiple lawsuits with regard to gray 
wolves long after the population numbers had been reached. And 
if you want to have voluntary efforts--and I just want to 
highlight the sage-grouse work we have done in the State of 
Wyoming with ranchers, energy companies, Audubon Society--to 
have those voluntary efforts, you also have to know that if you 
do right, and you take care of the species, and you get to 
those goal lines, that there in fact can be a delisting, that 
you have reached your goal.
    So there has to be a point, and that is why I think with 
the Chairman's comment about a cooling off period, we need to 
be able to see that it works. And in the working draft, the 
Secretary, of course, does continue to have the authority for 
emergency listing. I would never suggest that courts not be 
part of the process, but I am suggesting that, as you see now 
individual species being addressed by Congress, it is borne out 
of frustration that there is no end in sight, and that is not, 
in my view, the best way to address species conservation.
    Senator Cardin. And I would underscore that, at times, 
Congress and the statute have left those areas either ambiguous 
or not in the best interest, giving the courts little 
discretion as to how they review. The gray wolf is an example 
of maybe the statute not being appropriate for dealing with the 
circumstances in different regions of our country.
    So, I just point out that if we draft the statute 
correctly, judicial review is an extremely important part and 
can be done in a timely way, but allows for a more open, 
transparent process as the administrative areas move forward.
    Thank you.
    Mr. Mead. Thank you, Senator.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Sullivan, you had one last question?
    Senator Sullivan. Yes, sir, Mr. Chairman.
    Governor, I just wanted to touch on, again, this is a 
really bipartisan issue that we had in a hearing a couple years 
ago, the Obama administration's Fish and Wildlife Service 
Director Dan Ashe, in a hearing like this, we were talking 
about opportunities for bipartisan reforms to the ESA that I 
don't think has been amended since 1988 significantly, but it 
went to this issue of multiple listings.
    So, you would have certain groups come, and they are trying 
to get a listing where they file dozens, if not more, species 
in one petition, and that, of course, gums up the entire 
process, which may have been their intent. Even Director Ashe, 
under President Obama, was saying we don't think that is 
helpful; we think we should be able to reform that to have a 
much more narrow process.
    So that, at least in a hearing here, was something that was 
a very bipartisan view. Did the Governors get to that issue of 
multiple listings? It kind of goes to some of the other topics 
we have been talking about.
    Mr. Mead. We did in the discussions. Just a history, last 
time I was here testifying was on the House side, it was with 
Dan Ashe, and Director Ashe and I have had that conversation at 
times about that multiple listing.
    I just want to underscore one of the things you said. Part 
of the problem that we have with multiple listings and part of 
the problem that we were trying to address with Western 
Governors is this issue of when a species is listed, or when 
multiple species are thrown out there, you are spending money 
and time in areas that it doesn't need to be spent.
    Who suffers from that? It is not the people; it is the 
species. And that is, in my view, one of the reasons that it 
needs to be helped, is we are spending a lot of time, money 
making sure that attorneys are employed, but we are losing 
money and resources for species. And that is why, when we 
addressed this as Western Governors, it was bipartisan because 
the Western Governors, Governors, the country cares about 
species. Let's be smart about how we are spending our money and 
our time, and let's not have a system that is open to abuse 
that causes those delays.
    Senator Sullivan. Great point. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Well, thank you, Senator Sullivan.
    I would say that a significant number of environmental and 
conservation organizations have voiced their enthusiasm to work 
with this Committee in this bipartisan effort, Governor, to 
modernize the Endangered Species Act. Among these groups are 
the Western Agriculture and Conservation Coalition, which 
includes the Environmental Defense Fund, the Family Farm 
Alliance, The Nature Conservancy, the Wyoming Stock Growers 
Association, the National Audubon Society, and the California 
Farm Bureau. Additionally, the National Wildlife Federation and 
the Theodore Roosevelt Conservation Partnership have echoed 
this willingness.
    So, I look forward to working with these and other 
organizations that believe the status quo isn't good enough and 
the Endangered Species Act can be improved, and I ask unanimous 
consent to submit these letters for the record.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Senator Carper. I object. No, I don't object.
    Senator Barrasso. Do you have something you would like to 
add?
    Senator Carper. Can I ask a consent request of my own?
    Senator Barrasso. Yes.
    Senator Carper. I do not object.
    I ask unanimous consent to enter into the record a 2017 
letter from the Delaware Department of Natural Resources and 
Environmental Control, which recommends that the statutory and 
scientific integrity of the endangered species be maintained.
    I also ask unanimous consent to enter into the record 
additional letters and supplemental materials regarding the 
draft legislation that we are considering today.
    Senator Barrasso. Without objection, and there is none.
    Senator Carper. Thank you.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
     
    Senator Barrasso. Governor Mead, thank you so very much. We 
appreciate your being here. You are welcome to stay and listen 
to the discussion of the next panel. There are a number of 
interns from Wyoming who are here listening. I hope you will 
get a chance to visit with each of them.
    But thank you so much for being here. We look forward to 
being with you this weekend and the following weekend and all 
through the week at Frontier Days.
    Mr. Mead. Mr. Chairman, I just thank you for your 
leadership.
    Senator Carper, thank you for your leadership as well.
    When we discussed this with Western Governors, we 
recognized that it is up to us, and we hope we got you all a 
good start, and we appreciate your continued bipartisan work. 
So, thank you very much for the time today and for your 
efforts. It is appreciated very much.
    Senator Barrasso. Well, Senator Rounds was a former 
Governor, and Senator Rounds was trying to get here to visit 
and ask a couple questions, but he seems to be unavoidably 
delayed.
    Mr. Mead. Likely effectively endangers the rest of the 
members leaving, so thank you.
    Senator Barrasso. Thank you, Governor. Appreciate it.
    Our next panel--and I invite them to the come to the 
table--is Bob Broscheid, who is the Director of the Colorado 
Parks and Wildlife, and Matt Strickler, who is the Secretary of 
Natural Resources for the Commonwealth of Virginia.
    Thank you both for being here. I am grateful that you would 
take time to be with us. I hope you have enjoyed and benefited 
from the testimony of Governor Mead.
    As you are readying your testimony, we ask that you limit 
your testimony to 5 minutes so that there will be time for 
questions from the Committee.
    With that, Director Broscheid, welcome to the Committee, 
and please proceed at your leisure.

                  STATEMENT OF BOB BROSCHEID, 
             DIRECTOR, COLORADO PARKS AND WILDLIFE

    Mr. Broscheid. Thank you, Mr. Chairman, and thank you for 
the warm welcome.
    Good morning, Chairman, Ranking Member Carper, and members 
of the Committee. Thank you for the opportunity to represent 
the Governor of Colorado, John Hickenlooper, who couldn't be 
here and asked me to come in his stead, and to discuss our or 
my experiences as a State director who is on the front lines of 
management of threatened and endangered species conservation.
    As I provided in my written testimony, Governor 
Hickenlooper has not taken a position on this draft, but 
remains very supportive of the Western Governors Association 
process that Governor Mead laid out, and continuing this 
dialogue with Congress toward bipartisan practical solutions 
that improve the implementation of the Endangered Species Act.
    For the past 25 years I have had the privilege to work in 
partnership with many Federal, State, and local government 
agencies, non-governmental organizations, and private 
landowners on many issues associated with Endangered Species 
Act implementation.
    The Endangered Species Act, as Congress laid out in the 
passage, is premised on the State and Federal partnership 
approach; however, there are frustrations and certainly 
disagreement on all sides about what is broken and why, but 
more notably how do we fix it. These frustrations are evident 
in the enormous number of lawsuits being litigated and 
discussed in courts all over the country on both sides of these 
issues.
    For Colorado, we maintain 960 species that inhabit our 
State border, of which 210 species fall under some level of 
special concern. My agency spends an average of $8 million of 
State funding per year on those 210 special status species. In 
the last 10 years my agency alone has spent in excess of $100 
million on just two species of sage-grouse. Our expenditures 
are viewed as not only in conserving a threatened species or 
endangered species, or one that could be, but we view them as 
investments to prevent the need for that listing.
    Additionally, Congress congressionally appropriated revenue 
sources such as Farm Bill conservation programs, and Land and 
Water Conservation Fund also provide very critical support, but 
it is not enough. Draft legislation as you had discussed with 
the previous panelist is being considered in the House right 
now as Recovering America's Wildlife Act, and it is intended to 
alleviate this financial shortfall and provide much needed 
funding for those species at risk all over the country.
    However, one of the provisions in the discussion draft talk 
about State involvement. Not all States have the same 
technical, financial, or political wherewithal to engage in all 
aspects of the Endangered Species Act. We believe it is 
important to include provisions that allow each State the 
opportunity to opt in to whatever desired level of engagement. 
I believe this is consistent with what Congress intended some 
45 years ago, when the Endangered Species Act was passed.
    The other role from the States is our desire to be better 
engaged in the Act is not solely about shifting or the loss of 
a species from State to Federal jurisdiction, or about veto 
power. It is also about better ensuring that other State 
interests and authorities are fully considered in the listing 
and recovery process. These authorities--such as water rights, 
land use development, private property rights, and air 
quality--are all some of the factors that influence State and 
local economies and recovery of those species.
    So, Mr. Chairman, I will keep my comments very short, so 
thank you very much.
    [The prepared statement of Mr. Broscheid follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Senator Barrasso. Well, thank you so much for being with us 
today and for sharing your comments.
    Now I would like to turn to Mr. Strickler. Thank you.

    STATEMENT OF MATTHEW J. STRICKLER, SECRETARY OF NATURAL 
              RESOURCES, COMMONWEALTH OF VIRGINIA

    Mr. Strickler. Good morning, Chairman Barrasso, Ranking 
Member Carper, members of the Committee. Thank you for inviting 
me to testify today on this draft legislation and this 
important topic of conserving the shared natural heritage of 
Virginians and all Americans.
    My name is Matt Strickler. I serve as Secretary of Natural 
Resources for Governor Ralph Northam. I oversee the 
Commonwealth's Department of Game and Inland Fisheries and 
Department of Conservation and Recreation, which together lead 
our efforts to protect native Virginia wildlife and plants, 
including State and federally listed threatened and endangered 
species.
    Virginia currently has 89 ESA listed species, ranging from 
a flying squirrel, to five varieties of sea turtles, to the 
Atlantic sturgeon, a fish that can reach 14 feet long and 800 
pounds, and has been around since the time of the dinosaurs.
    We have strong, collaborative working relationships with 
the U.S. Fish and Wildlife Service and the National Marine 
Fisheries Service on Endangered Species Act issues. Those 
relationships have led to some impressive accomplishments in 
conserving and recovering populations of imperiled species.
    Collaboration among Fish and Wildlife Service, Department 
of Game and Inland Fisheries, the College of William and Mary, 
and other partners conserved critical bald eagle nesting areas 
in the Chesapeake Bay watershed and reduced the impacts of land 
disturbance, a key to the eagle recovery effort and ultimate 
delisting in 2007.
    Fish and Wildlife Service, Game and Inland Fisheries, and 
The Nature Conservancy have worked together to protect 
endangered habitat in Southeast Virginia. Now the population is 
expanding on Federal, State, and private lands.
    And the restoration plan co-developed by the Fish and 
Wildlife Service and Game and Inland Fisheries is bringing 
freshwater mussels back from the brink of extinction in 
southwest Virginia's Clinch, Powell, and Holston Rivers, one of 
the most biologically diverse areas on the North American 
continent.
    We certainly have work left to do, but Governor Northam and 
I see species conservation and recovery as an opportunity, not 
a hurdle. We believe that when our lands and waters are kept 
natural and clean enough to support a health and diverse 
ecology, they are better able to support a healthy and diverse 
economy. These places become more attractive for use by 
hunters, anglers, hikers, bikers, paddlers, and the like. And 
they become more desirable places to live, work, play, start a 
business, and raise a family.
    Speaking to the draft bill before us today, I agree with 
the Chairman's assessment that we need to do more for 
threatened and endangered species than keep them on life 
support. But the most important thing we can do is commit 
greater resources to the vital task of recovery. I also agree 
that the Endangered Species Act can be strengthened, and I 
respect the dialogue initiated by the Western Governors 
Association to explore potentially beneficial ideas.
    The discussion draft released by the Chairman, however, 
contains provisions that would hinder Virginia's ability to 
make the most of our partnerships with Federal agencies by 
complicating proven and established species protection and 
recovery processes. The Commonwealth of Virginia cannot support 
the legislation in its current form.
    More generally, I am also concerned that even well 
intentioned efforts to amend the ESA could open the door to 
provisions that would harm its essential purpose. Some of the 
provisions suggested in this draft and in the Western Governors 
Association report would do that. However, the primary reason 
many species are where they are is precisely because States, 
including Virginia, have not had the resources or the political 
will to do the jobs themselves. That is why the Endangered 
Species Act is so important; it separates the complicated 
scientific and management questions of biodiversity 
conservation from local political pressures.
    As a practical matter, I believe this bill would make 
working with adjacent States to recover shared species more 
difficult. As a philosophical matter, these resources do not 
belong just to Virginia or to Wyoming or to any other single 
State; they belong to all Americans.
    In the view of Virginia, the existing Act and regulations 
strike the appropriate balance of shared responsibility between 
State and Federal agencies. We have multiple opportunities to 
participate in and provide information to ESA decisionmaking, 
including recovery planning and implementation, and we offer 
information and recommendations on proposals to list species, 
as well.
    We know that the Fish and Wildlife Service and the National 
Marine Fisheries Service are viewing the scientific information 
we provide them and using it when it is the best available. It 
is our view that the best way to improve implementation of the 
ESA and to recover more species faster is for Congress to 
provide adequate funding for science and management of these 
resources and their habitat.
    Federal agencies should absolutely be held accountable for 
how these funds are spent and should be required to document 
progress and results. But we should not forget that the ESA, as 
written, has a 99 percent success rate at preventing the 
extinction of listed species and that 90 percent of species 
with recovery plans are on track to meet their goals on 
schedule. To use the Chairman's medical analogy, if you look at 
the Endangered Species Act as an emergency room, an ER doctor 
with a 99 percent success rate of keeping patients alive is 
pretty impressive.
    Moving forward, Virginia hopes to work with Congress to 
improve the Endangered Species Act and secure the kind of 
funding for Federal and State wildlife agencies that is 
necessary to speed recovery of ESA listed species.
    Thank you.
    [The prepared statement of Mr. Strickler follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Senator Barrasso. Well, thank you so much for your 
testimony.
    Mr. Broscheid, Director, the challenges surrounding 
implementation of the Endangered Species Act don't just affect 
the West. We talk about the Western Governors Association, but 
according to the U.S. Fish and Wildlife Services' 7 year work 
plan, there are over 360 additional species that are going to 
be considered for listing by 2023, so in the next 5 years; and 
many of these species are in States in the East, the South, and 
the Midwest.
    In terms of the numbers on the list, Colorado between 21 
and 40, but if you look at Virginia, North Carolina, Florida 
these places, the East and the South, seem to really be 
impacted. A staggering 68 species are going to be considered in 
Virginia alone; 43 in Tennessee, 42 in Florida, 41 in North 
Carolina. Dozens more are going to be considered in other 
States throughout the country.
    I would just say, shouldn't these States be given a greater 
role to play in helping prevent these listings in the first 
place, by protecting species, and if the listings do occur, 
have the States have a greater role in helping recover these 
species?
    Mr. Broscheid. Mr. Chairman, thank you for that question. 
Absolutely, I agree on all of those points. You talked 
previously with the Governor, and I agree with his response. 
State wildlife agencies maintain very broad police powers 
within their borders. We in Colorado maintain a very strong 
scientific and research program, as well as the landowner 
connections that we have with local governments, private 
landowners, and then can work across State lines, like the 
Governor mentioned about sage-grouse.
    We are engaged. In Colorado we are aware of those numbers, 
and with the limited amount of funding that we have available, 
we are having to make decisions about where to put that funding 
to have the biggest impact--prioritize, essentially.
    Our role in recovery plannings and listing and delisting 
and down-listing processes, as well as bringing the best 
available science. In most cases, States are the only ones who 
have that, in conjunction with universities, and I think that 
affords us an opportunity to sit at the table and discuss this. 
If these are going to be science based decisions, let's make 
sure we have the best available science.
    Senator Barrasso. We had a hearing in February--this past--
of 2017, and at the time Jamie Rappaport Clark, President and 
CEO of the Defenders of Wildlife, a former director of U.S. 
Fish and Wildlife Service under President Clinton, 
acknowledged, said, ``Certainly, the ESA could work better, 
absolutely.''
    I guess you agree with that. Then I would say why is it 
important for States to have more of a say?
    Mr. Broscheid. Mr. Chairman, States are concerned, first of 
all. They are very concerned about threatened and endangered 
species, and their management and their future survival; that 
they won't need the protections of the Act. States like mine 
have been very lucky about the funding that is available, non-
Federal funds that we can commit to this.
    But I think in the broader sense, in the highest level, it 
is talking about economies; it is talking about working 
landscapes; private landowners that have very large ranches. It 
is about our water supply; it is about all of those things 
that, as a State, we are very concerned about, and I think that 
should afford us an opportunity and a seat prominently at the 
table when we talk about listings and recovery.
    Senator Barrasso. Senator Carper.
    Senator Carper. Senator Booker has been good to come not 
once, but twice today. I am going to yield to him so he doesn't 
miss a chance to ask questions, then I will ask later.
    Senator Barrasso. Senator Booker.
    Senator Booker. Thank you very much. It is not often that 
Delaware defers to New Jersey, but I am grateful for that, sir.
    [Laughter.]
    Senator Booker. Mr. Chairman and Ranking Member, I want to 
start off by just saying that the Endangered Species Act has 
been incredibly successful by any measure, but statistically, 
when I was mayor of the city of Newark, I used to write, In God 
We Trust, but everybody else bring us data. The data is 
compelling: 99 percent of the wildlife under the Endangered 
Species Act protection has been saved from extinction. Ninety-
nine percent. We have a great track record.
    And while the huge task of recovering a species from the 
brink of extinction often takes decades, the majority of the 
species that have been listed under the ESA are recovering 
within the timeframes that have been projected.
    Now, I want to just emphasize for the record how dire our 
current situation is on the planet Earth. We are in a global 
extinction crisis of a proportion that most Americans don't 
understand.
    It is estimated that, right now, more than one in six 
species on the planet are threatened with extinction in this 
century alone. According to a report released by the 2016 World 
Wildlife Fund, it is estimated the global populations of fish, 
birds, mammals, amphibians, reptiles declined 58 percent 
between about the time I was born, 1970, and today, meaning 
that we have lost more than half of all the wildlife on the 
planet, more than half of all the wildlife on the planet Earth 
in the last 50 years.
    Species today are going extinct thousands of times faster 
than natural extinction rates. Again, this is staggering. This 
is stunning, that half of all the wildlife on the planet 
Earth--in my lifetime--have gone.
    So, given this extinction crisis, I just believe that we 
are considering a bill that, in its total conception, is taking 
us in the wrong direction. It is a step in the wrong direction. 
And rather than focusing on what we have heard from the other 
testimony that I sat in earlier, on the urgent need to increase 
resources to do a better job at protecting species. Governors 
from both sides of the aisle would echo that we need more 
investment on the Federal level to deal with the crisis.
    And this is not just about animals; this has a profound 
impact on human beings, on every American. And I just believe 
that this bill would move us away from the best available 
science and would delay and restrict, ultimately, judicial 
review.
    So, in the few moments I have left, Mr. Strickler, the bill 
we are considering today would prevent any legal challenge to 
delisting determination by the Fish and Wildlife Service for 5 
years. So, the Fish and Wildlife Service, if they make a 
mistake, which we all do, and prematurely delist a species, 
this mistake couldn't be challenged for 5 years in court.
    I am wondering about that particular section. Do you have 
an opinion about that, and do you believe it is going to help 
the crisis we have, the endangered species crisis we have right 
now in America and beyond?
    Mr. Strickler. Senator Booker, thank you for the question. 
I certainly understand the sentiment behind this proposal. I 
think, as a practical matter, it is concerning to the 
Commonwealth of Virginia.
    As you mentioned, species recovery is a question of 
science, and science is an evolving process. We are always 
finding out more than we currently know about listed species 
and the ecosystems they live in. And judicial review is the 
tool that we have to make sure that we are doing things right 
as executive and legislative branches. If there is a situation 
where we make a delisting decision that we find out, 2 years 
later, was an error, having to wait 3 more years for someone to 
be able to challenge that is not really the place we want to 
be, so, for that reason, I think it is perhaps misguided.
    Senator Booker. And it is a balance. I don't think there is 
an American who doesn't think we are overly litigious in many 
ways, but it is really a balance between having the courts have 
the flexibility necessary so that science can actually guide. I 
guess that is next question I have in the few seconds I have 
remaining, is one of the strengths of the ESA as we know it is 
the flexibility it provides the Fish and Wildlife Service to 
update recovery plans as those facts change on the ground, but 
this bill would require unanimous agreement among members of a 
recovery team in order to change the goals of a recovery plan, 
even if new scientific evidence emerged of an increased threat 
to species.
    Do you believe that this change would help or hurt the 
efforts to protect endangered species?
    Mr. Strickler. Thank you for the question, Senator. I think 
it would hinder species recovery efforts. And again, I 
understand where this is coming from. States have expressed 
frustration in the past when recovery criteria are set through 
the recovery planning process and then, because of new data, 
new science coming in to the equation, the end game changes a 
little bit as far as what is necessary to recover a species, 
and some people think that is shifting the goalpost. Really, it 
is just following the best available science, and I think this 
provision would prevent us from doing that.
    Senator Booker. I am grateful, sir.
    Thank you very much, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    During our last hearing on the Endangered Species Act, we 
heard about the bipartisan process previous leaders of this 
Committee embraced, developed, refined, and ultimately passed 
the Endangered Species Recovery Act of 1997. I am concerned 
that the current discussion draft diverges from that bipartisan 
model, as evidenced by numerous conservation stakeholders who 
have already come out in opposition to the current draft.
    As we look to modernize ESA, it is important that we always 
remember the foundational policy goals of this seminal Act: to 
protect and recover our Nation's endangered species and 
ecosystems. And we must never forget that ESA has been 
incredibly successful in pulling back more than 99 percent of 
listed species from the brink of extinction.
    Any effort to reform this critical law must recognize this 
fact and be very careful to guarantee that, at the very least, 
we do no harm when it comes to modifying our current science 
based framework.
    And that is where my questioning is going to go to, Mr. 
Strickler. I think I am going to address you first.
    In your testimony, you noted that the Federal Government 
reviews your department's scientific information and will use 
it so long as it represents the best available data. Can you 
explain why it is so important to use the best available 
science when justifying the Endangered Species Act decisions 
and describe how this bill might negatively impact the way the 
U.S. Fish and Wildlife Services uses State data?
    Mr. Strickler. Senator Duckworth, thank you for the 
question. The importance of using the best available science is 
because these species are critically imperiled, and we may not 
have another chance to get it right if we are not using the 
best available science. In many cases, as the Chairman and 
others have noted, the best available science is science that 
is being produced by State agencies. In other cases, the best 
available science is being produced by research universities or 
nonprofit groups, or the Federal Government itself, and in many 
cases, the Fish and Wildlife Service.
    So, I think elevating State produced data above data 
produced and science conducted by other stakeholders that have 
just as much concern, just as much care for the species that 
are under Endangered Species Act protection really runs a risk 
of kind of marginalizing potentially very good science and may 
put us in a situation where delisting listed species is easier, 
but actually recovering them in a meaningful ecological or 
biological sense is more difficult.
    Senator Duckworth. Thank you.
    I want to address funding a little bit, as well. Although 
this draft bill dramatically redefines the State's role in 
species management, it does fail to provide new resources to 
address the current funding shortfalls that hinder both Federal 
and State species conservation programs. This is a serious 
shortcoming, since, even with the strongest law, it will be 
weakly enforced if it does not have vital funding.
    Again, Mr. Strickler, in your opinion, should Congress 
prioritize using any ESA modernization effort to significantly 
increase Federal funding to help States better implement 
species recovery efforts?
    Mr. Strickler. Thank you, Senator, for the question. I 
think that funding is the critical question here. Mr. Broscheid 
mentioned that his State has been in triage mode, basically, 
with having to prioritize the most critically endangered 
species, and we are, too, and that is certainly something that 
is experienced across the country.
    And a big part of that is because, at least the information 
that I have shows about a quarter of federally listed species 
receive $10,000 or less per year toward their recovery. That is 
just inadequate, and we are never going to make the progress 
that we need, regardless of what States are doing, if that is 
the kind of commitment that the Federal Government is able to 
make.
    Senator Duckworth. Thank you.
    With my remaining time, Mr. Broscheid, can you talk a 
little bit about the funding needs for States in terms of 
Federal funding for the management of endangered species?
    Mr. Broscheid. Senator, I agree with Mr. Strickler. It is 
essential. It is everything. To recover habitats, to conduct 
the science, to sit on recovery teams and develop these 
recovery plans all take resources right now that are coming 
from State or legislatively, at the State level, appropriated 
dollars. Certainly, funding is probably the biggest impact to 
and prevention of recovery of species of not just to prevent 
them from extinction, but to move them from off the list, where 
they don't need the protections of the Act anymore.
    Senator Duckworth. Thank you so much.
    Thank you, both of you gentlemen, for being here today.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Duckworth.
    Senator Merkley.
    Senator Merkley. Thank you very much.
    Appreciate all your testimony. In your testimony, you have 
spoken to the importance of collaboration between Federal and 
State agencies, and true collaboration is very helpful and 
essential to understanding what is going on at both levels and 
how those things interact. To that end, I want to understand a 
few of the practical events of the bill.
    Secretary Strickler, what is the practical effect of a 
Governor appointing half the members of the recovery team? Does 
it make it easier or harder for local interests to influence 
recovery outcomes?
    Mr. Strickler. Senator Merkley, thank you for the question. 
I think, from perhaps some perspective, it makes sense for 
localities and States that are in the area, physical area of a 
threatened or endangered species to have a greater role in 
recovery, but I think this particular provision would throw 
things out of balance. In one sense, when a species is listed, 
it means that the States where that species exist have not done 
an adequate job of conserving the species in the first place, 
so to give the States the primary authority and an equal number 
or majority of members on a recovery team I think kind of goes 
against common sense, perhaps.
    The other thing I think that is worth noting is that there 
are other States that perhaps these species don't exist that 
have an interest in protecting these species. We certainly, in 
Virginia, have folks who visit the West and appreciate western 
States' wildlife and have an interest in making sure that that 
wildlife is conserved. So, for those reasons, I think that is 
where we come down on that.
    Senator Merkley. So just in terms of basic collaboration 
understanding, it makes sense to have a very rich dialogue with 
local experts, local decisionmakers, but your concern is about 
the formal structure of the recovery team? Does that take us to 
the issue of the unanimous vote being required to be able to 
update a plan?
    Mr. Strickler. Yes, sir. I think that that particular 
provision would make it very challenging if new science was 
introduced, to be able to kind of do adaptive management and 
shift on the fly the way that we are working to recover 
species.
    Back to your original question, I apologize for not 
answering it very articulately, but collaboration is absolutely 
necessary to this process, and it is collaboration among 
States, it is collaboration between the States and the Federal 
Government. At least in Virginia, and I certainly can't speak 
directly to the experience of other States, but we feel like we 
have that relationship.
    Our Department of Game and Inland Fisheries and our 
Department of Conservation and Recreation Natural Heritage 
Program work closely on a daily basis with Fish and Wildlife 
Service. There is nothing that Fish and Wildlife Service is 
planning to do with respect to threatened and endangered 
species in Virginia that our fish and wildlife agencies do not 
know about and are not working hand in hand with the Federal 
Government on.
    Senator Merkley. We have a situation out in the West where 
Oregon put together a whole team of State experts of all kinds 
to try to develop a plan because we wanted to avoid a Federal 
listing, but it was the Federal listing that motivated us to 
develop that plan. Not only did we do the State plan, but we 
also then used extensive use of candidate conservation 
agreements, because essentially said if you do these things on 
your own private land, then you are protected from additional 
measures that might be adopted if we do get listed. That 
combination really motivated people to come together.
    I am looking at the structure here and seeing if 
essentially Federal action depends upon full sign off by a 
State, then essentially Oregon wouldn't have acted on the sage-
grouse; the Federal Government would have kicked in late in the 
process at great stress and odds, rather than having had a true 
collaboration.
    Is there a possibility this could actually undermine the 
type of collaboration that acts early and quickly on an 
endangered species?
    Mr. Strickler. Thank you for the question. I think, just to 
go back to your initial point, the things that you mentioned, 
candidate conservation agreements, safe harbor agreements, 
proactive conservation work to try to preclude listing or take 
positive conservation steps before a species is listed, those 
things really show the flexibility of the ESA as it is written. 
Of course, there are processes that can be improved and that 
are always improving and would make things a little more 
seamless with respect to those kinds of voluntary agreements, 
but they are really helpful, and they are able to be entered 
into under the Act, and I think that is a very valuable thing.
    Senator Merkley. Thank you.
    Senator Barrasso. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Mr. Secretary, good to have you here.
    Mr. Chairman, the Secretary was on my staff over on the 
Natural Resources Committee, so I am used to actually having 
him sit next to me in a hearing. And it is good to see you on 
the other side of the dais as the Secretary from the State of 
Virginia.
    Matt actually is an oyster farmer. That is what he did in a 
previous life, so I am looking forward to harvesting the pearls 
of wisdom from you here today. He has always been a common 
sense, smart, pragmatic advisor.
    You say in your testimony that the best way to improve 
implementation of the Endangered Species Act and to recover 
more species faster is for Congress to provide adequate funding 
for science and management of those resources and their 
habitat.
    What does adequate funding look like? How much more do we 
need to appropriate? Where is the need the greatest?
    Mr. Strickler. Senator Markey, thank you for the question 
and for your kind remarks. It is good to see you again.
    The answer of how much is enough is a difficult one to 
answer and perhaps is one that congressional appropriators need 
to deal with, and not me, but I think it is safe to say that we 
are not there yet. At the risk of being redundant, again, the 
information that I have received is showing that about a 
quarter of threatened and endangered species are receiving less 
than $10,000 a year toward recovery, and that is just not 
acceptable. We are not going to be able to make meaningful 
progress in recovering these species or doing much more than, 
as the Chairman mentioned, keeping them on life support, 
without a significant dedication of resources.
    Senator Markey. So, we have prevented 99 percent of listed 
species from going extinct because of the Act, but it always 
depends upon the best science.
    In your opinion, how much of that success has been 
dependent upon using the best science in order to ensure that 
the Endangered Species Act works?
    Mr. Strickler. Thank you for the question. In my opinion, 
the science is critical; it is the most important piece of 
ensuring that the Endangered Species Act works successfully.
    Senator Markey. And what would the impact be of this draft 
legislation that is being presented to us in terms of the role 
that science will play in making decisions?
    Mr. Strickler. Thank you for the question. I think that 
there is some frustration that has been expressed, and this may 
be based on some experience, that States aren't having science 
that they produce, at least in their minds, adequately 
considered by the Fish and Wildlife Service when they are 
making listing and delisting decisions and recovery planning 
and things like that.
    My experience and Virginia's experience is that the Fish 
and Wildlife Service does take the State concerns into account 
and is using State science when it is the best available. I 
think that the current process is working, and we are skeptical 
of upsetting that balance.
    Senator Markey. In your testimony, you mentioned that this 
draft legislation contains provisions that would hinder 
Virginia's ability to work with Federal agencies under the 
Endangered Species Act. Can you elaborate on that?
    Mr. Strickler. Yes, sir. I think one of the key points here 
is when you are setting up a recovery plan, for example, under 
this new legislation, one State has to be the lead. We share 
threatened and endangered populations of a lot of aquatic 
species in the Tennessee River watershed with Tennessee. 
Without the Federal Government, the Fish and Wildlife Service 
being able to step in and be a referee to that process, I don't 
think things would work as well trying to recover these species 
if Virginia and Tennessee were pointing fingers at each other 
without a central node to kind of coordinate things and point 
everybody in the right direction.
    Senator Markey. Finally, this draft legislation currently 
limits judicial review of the Endangered Species Act on 
decisions such as the delisting of species. What would, in your 
opinion, the impact of reduction of judicial review have in 
terms of your State's role, but in general, our ability to 
protect endangered species?
    Mr. Strickler. Yes, sir. Thank you for the question. I 
don't want to be redundant on this point either, but I think 
limiting judicial review and limiting the ability of citizens 
to hold their government accountable for decisions that, in the 
view of the citizens, they think are not the right decisions, 
you know, if people bring court challenges that are frivolous 
or not adequate, they are going to be rejected. We have seen 
that in the past. Litigation is an important tool. It is not 
the only tool, but it is an important tool for species 
recovery.
    Senator Markey. Thank you. Thank you. We are proud of you 
sitting down there. We thank you for your service.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Carper. Mr. Strickler, do I understand you once 
served in the House of Representative as a professional 
staffer?
    Mr. Strickler. With great trepidation, I will answer yes.
    Senator Carper. Who were some of the members you worked 
with in that time before?
    Mr. Strickler. I had the privilege, first, of working for 
then Ranking Member Ed Markey, and when he moved over to this 
venerable body I worked for Peter DeFazio from Oregon, and 
then, more recently, for Raul Grijalva from Arizona.
    Senator Carper. Of those three, who would you say was your 
favorite to work for?
    [Laughter.]
    Senator Markey. Or to put it another way, who hired you the 
first time?
    Mr. Strickler. I was hired by Senator Markey.
    Senator Markey. Thank you. Excellent choice.
    Senator Carper. I have no further questions. Well, I have 
one.
    Thank you both for being here today and for bringing your 
sense of humor, and for your commitment and your service.
    Mr. Secretary, your testimony mentions the economic 
opportunity to maintain diverse ecology and for restoring our 
lands and our water. You state that ``These places become more 
attractive for use by hunters, anglers, hikers, and bikers in 
Virginia.''
    I grew up in Virginia; I grew up in Danville and Roanoke. 
You drive down Route 81, Interstate 81 on your way from 
Maryland on your way to North Carolina, where my wife is from. 
We drive down Route 81, where I used to take my hunting dogs 
and go hunting for quail, so I have great affection for 
Virginia, especially that part of Virginia.
    As I said in my opening statement, which I think you were 
here to hear, we share this experience in Delaware, and that is 
that we want these places to become more attractive for use by 
hunters and anglers, bikers and hikers. Not only do people 
travel from far and near to see the endangered species, all 
kinds of threatened and endangered species on Delmarva 
Peninsula and in Delaware, but when they do, they spend money, 
and they support our local economies.
    Would you just elaborate on how habitat restoration and 
species conservation can bolster economies in Virginia and 
beyond?
    Mr. Strickler. Yes, Senator Carper. Thank you for the 
question.
    I think, directly speaking with respect to individual 
species, there are industries and economies that we have seen 
pop up in Virginia around recovery of threatened and endangered 
species. Humpback whales is a great example. For a long time in 
Virginia, you would never see a humpback whale off the coast. 
Now we have whale watching trips; people pay money to go off of 
Virginia Beach and see humpback whales in the wintertime. It is 
a great thing.
    Last week I was down in far southwest Virginia on a trip 
with The Nature Conservancy and some local partners who are 
working with the Fish and Wildlife Service and others to 
recover a number of threatened and endangered mussel species on 
the Clinch River. It is a really fascinating effort because 
these mussels, when they are recovered, they filter 10 gallons 
of water a day.
    So, when you have a few of them in the river, your river is 
not going to be really clean. When you have thousands of them 
in the river, your water quality is going to be much better. 
That is improving water quality that supports one of the best 
trophies--small mouth bass fisheries--in the country, and 
people are coming from far and wide to participate in that 
fishery, to participate in water sports and things like that.
    This is a river system that was decimated by the vestiges 
of pollution related to the coal industry only a decade or so 
ago, and we have really brought it back, and now we are seeing 
tourism pop up around the recovery and the restoration efforts 
that are made possible and driven by endangered species 
recovery.
    Senator Carper. Mr. Broscheid, a last quick comment. 
Anything you want to mention with an eye toward helping steer 
us toward some kind of principal compromise on what is a 
difficult issue, important issue. In closing, quick thought?
    Mr. Broscheid. Senator, thank you very much.
    I agree. I think as far as the West goes and the State of 
Colorado, half the State is private and half is mixed Federal 
land, along with some State trust lands out there. It gets 
complicated.
    The old saying is habitat is where it's at; that's where 
the species live. And if you can work toward habitat 
conservation, you will likely have recovery of species, of a 
suite of species that reside in the habitat. But that is not 
necessarily the case all the time.
    Sage-grouse is a perfect example. We have a population that 
is Gunnison sage-grouse that is located mostly in the Gunnison 
Basin and small parts of Utah. We have conserved, at the time 
of the listing, warranted listing, 85 percent of that habitat, 
working with local governments, the Federal agencies, and those 
entities to secure 85 percent of that habitat. The bird was 
still listed as threatened, despite already a discussion or 
decision by the Service that that would be needed.
    I think my point is that birds will fluctuate, and anybody 
who does bird hunt knows 1 year you may have a great year, and 
the next couple maybe not. Birds do that naturally. This is the 
information that is coming out of the science that we are 
starting to learn. So, securing the habitat doesn't necessarily 
mean that species will recover; we have to include in there 
what the scientific and daily needs of that species are. But it 
does get trickier when you add in a significant amount of 
Federal land, private land, and State lands within the borders 
of a State.
    Senator Carper. All right.
    Just very briefly, the same question. A word of advice for 
counsel as we look for principal compromise on what is an 
important issue, but a difficult issue, Mr. Strickler.
    Mr. Strickler. I apologize, Senator. Could you just repeat 
the question?
    Senator Carper. I asked Mr. Broscheid, a word of advice, as 
we conclude here today, for us as we look for some kind of 
principal compromise on what is admittedly an important, but 
difficult issue.
    Mr. Strickler. Sure. I think I would just add a little bit 
of insight to continuing answering your previous question on 
the economics of species recovery.
    As we look at protecting these habitats and these 
ecosystems that support threatened and endangered species, we 
are also protecting and conserving land that has multiple uses. 
The outdoor recreation economy is huge business, almost $1 
trillion in annual consumer spending in the United States. That 
is about $22 billion in Virginia alone.
    We, as the Commonwealth, have a land conservation strategy 
that focuses on biodiversity conservation and multiple uses, 
watershed protection, things like that. When you have those 
kinds of synergies, you can protect threatened and endangered 
species, and also get economic benefits.
    I think the last point I would make is if the Committee 
would just keep in mind the significant interest that States 
like Virginia, that unfortunately have, through mismanagement, 
lost a lot of our iconic wildlife species decades and centuries 
ago, but don't take for granted what you have, when you have 
it, as far as iconic wildlife. Our folks have to travel all the 
way across the country to see bison or elk or mountain lions, 
and that used to not be the case. But the places where they do 
exist are special because they exist, not in spite of them.
    Senator Carper. Thank you.
    Thank you both very, very much.
    Senator Barrasso. Well, those special places are called 
Wyoming, so thank you.
    [Laughter.]
    Senator Carper. And there is a Wyoming in Delaware, just 
south of Dover, Camden, Wyoming.
    Senator Barrasso. Director Broscheid, just a couple quick 
things.
    Title 1 of this discussion draft is intended to really make 
States equal partners in implementing the Endangered Species 
Act. Some defenders of the status quo claim that States can't 
really adequately conserve wildlife or really don't have 
interest to do so. The Sierra Club actually went so far as to 
say authority over wildlife decisions to often hostile State 
management, is their phraseology about the bill.
    I think you have served in high level positions both in the 
Colorado Parks and Wildlife and in the Arizona Game and Fish 
Departments. Are States hostile to protecting wildlife in their 
States? What is your experience?
    Mr. Broscheid. Mr. Chairman, I think hostile is a strong 
word. I think it is more of frustration. I think the 
frustration comes from--and the Governor alluded to this a lot 
earlier--it is created by uncertainty in decisionmaking 
processes. You are told something, this is the best science of 
conservation, and then as you start marching down the road 
spending millions and millions of dollars that you probably 
don't have, and then to have those goal posts move constantly, 
it creates a frustration to a point that folks that you have to 
work with toward conservation. It makes private landowners, it 
makes even individuals in Federal land management agencies, as 
well as the Fish and Wildlife Service, very frustrated when, at 
the end of the day, a lot of these decisions are being decided 
in courts and judges are making these decisions, whether there 
is science in that decision or not.
    It is really borne out of our frustration, Mr. Chairman, I 
think, where you see some States that may have constructive 
criticism for the Act.
    Senator Barrasso. Well, I appreciate everyone being here 
today. The hearing has been very useful in outlining the need 
to modernize the Endangered Species Act in a manner that I 
think captures the expanded conservation capacity and expertise 
of our States around the country. I think we need to move 
beyond the current failing policy of listing species and then 
leaving them on life support.
    Over the weekend, Eric Vance, a Maryland based science 
writer, editorialized about endangered species in the 
Washington Post. The headline--this is page A15, Saturday, July 
14th--``We Are Losing the Fight to Save Endangered Species.'' 
And he stated, ``Modern conservation is increasingly about 
maintaining insanely thin populations with shallow gene 
pools.'' He said, ``Not only is this expensive and often 
futile, but also it undermines the whole point of wildlife 
management.''
    That is how today's Endangered Species Act operates. For 30 
years defenders of the status quo have prevented prior 
Congresses and Administrations from improving the law, so I 
believe we need to act. We need the Endangered Species Act to 
work better.
    I appreciate the Western Governors Association to come 
together on a bipartisan basis; done an excellent job 
identifying the policies that we can adopt to do just that.
    Now it is our turn. I look forward to working across the 
aisle with members who will join me in using the Western 
Governors Association's bipartisan work to make the Endangered 
Species Act work better for both wildlife and for people.
    So, I appreciate your being here today.
    Members may submit follow up questions for the record. The 
hearing record will be open for the next 2 weeks.
    I want to thank all of the witnesses today for your time 
and testimony, especially Governor Mead. Grateful that you 
would take the time to be with us to share your thoughts, your 
experience, your leadership. We are very grateful and 
appreciative.
    With that, the hearing is adjourned.
    [Whereupon, at 11:41 a.m. the Committee was adjourned.]
    [Additional material submitted for the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
                                 <all>
</pre></body></html>
